Report No. D-2009-114                   September 25, 2009




          Transition Planning for the Logistics Civil
            Augmentation Program IV Contract
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO                           Administrative Contracting Officer
ASC                           Army Sustainment Command
COR                           Contracting Officer’s Representative
DCMA                          Defense Contract Management Agency
DPD                           Deputy Program Director
LOGCAP                        Logistics Civil Augmentation Program
PCO                           Procuring Contracting Officer
QAR                           Quality Assurance Representative
                                   INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                        September 25,2009

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                  AGENCY
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Transition Planning for the Logistics Civil Augmentation Program IV Contract
          (Report No. D-2009-114)

Weare providing this report for review and comment. We considered comments from the
Executive Director, Logistics Civil Augmentation Program, and the Commander, Defense
Contract Management Agency International, when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. While
some of the comments from the Executive Director, Logistics Civil Augmentation
Program, and the Commander, Defense Contract Management Agency International, were
responsive, some were not. In response to management comments, we revised draft report
Recommendations B.2 and D.7.d. Therefore, we request additional comments and
documents for the recommendations listed in the recommendations table on page ii of this
report by October 26,2009.

Please provide comments that conform to the requirements of DOD Directive 7650.3. If
possible, send a .pdffile containing management comments to audacm@dodig.mil. Copies
of management comments must have the actual signature of the authorizing official for
your organization. We cannot accept the I Signed I symbol in place of the actual signature.
If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8900 (DSN 664-8900).




                                       \~:~tfu-
                                             Deputy Inspector General
                                             for Auditing
Report No. D-2009-114 (Project No. D2008-D000AS-0270.000)                        September 25, 2009

                Results in Brief: Transition Planning for the
                Logistics Civil Augmentation Program IV
                Contract
                                                               current transition plan to all organizations
What We Did                                                    involved in the transfer, and ensure that all
We determined whether the Army adequately                      personnel perform transition functions as
planned for the transition from the Logistics Civil            delegated. The Executive Director should also
Augmentation Program (LOGCAP) III to the                       ensure that the procuring contracting officer
LOGCAP IV contract. This audit focused on the                  develops a standard performance work
task orders for the transferring of work in Kuwait.            statement, establishes a plan to identify goods
                                                               and services that can be acquired using
What We Found                                                  firm-fixed-price task orders, and develops a
Although the LOGCAP office planned for the                     pricing model to assist in requirements
transfer of 11 task orders, which accounted for                generation. Lastly, the Executive Director
$5 billion of $31 billion spent on the LOGCAP III              should require that a Defense Contract
contract, to new performance contractors, planning             Management Agency (DCMA) property
efforts still needed improvement. We identified                administrator maintain a Government list to
internal control weaknesses in planning, controlling           track LOGCAP property.
costs, and overseeing property and contractors.               The Commander, DCMA International,
                                                               should identify a process to hold officials
   The LOGCAP office did not validate that all                accountable for not completing requirements,
    organizations involved in the transfer                     should assess the quality officials’ workload,
    process had the most up-to-date version of                 and should provide additional training. The
    the transition plan (Finding A).                           Commander should also direct the LOGCAP
   Despite spending $31 billion on LOGCAP III                 quality assurance representative to update
    work, the LOGCAP procuring contracting                     review checklists, conduct the required
    officer did not develop a standard                         number of reviews, assist CORs as required,
    performance work statement or identify goods               and verify that personnel perform their
    and services that could be acquired under                  functions in accordance with DCMA policy.
    firm-fixed-price task orders, both of which
    would have reduced costs to the Army                   Management Comments and
    (Finding B).                                           Our Response
   The LOGCAP office did not properly
                                                           We received comments from the Executive
    oversee $4 billion in LOGCAP property and
                                                           Director, LOGCAP, and the Commander, DCMA
    has no assurance that all Government
                                                           International. The Executive Director and the
    property will transfer to new performance
                                                           Commander made many statements that disagreed
    contractors (Finding C).
                                                           with the recommendations. However, many of
   The quality assurance representative and               their comments described actions that were taken
    contracting officer’s representatives (CORs)           that met the intent of the recommendations. For
    in Kuwait did not evaluate contractor                  others, we require additional comments and more
    performance on a consistent and routine                documentation. Please see the recommendations
    basis (Finding D).                                     table on the back of this page.
What We Recommend
   The Executive Director, LOGCAP, should
    finalize all transfer procedures, distribute the
                                                       i
Report No. D-2009-114 (Project No. D2008-D000AS-0270.000)          September 25, 2009

Recommendations Table

Management                      Recommendations                No Additional Comments
                                Requiring Comment              Required
Executive Director, Logistics   A.2, A.3, A.4.a, A.4.b, B.1,   A.1, A.4.c, and C
Civil Augmentation Program      and B.2
Commander, Defense Contract     D.1, D.2, D.3, D.4, D.7.a,     D.5, D.6, and D.7.c,
Management Agency               D.7.b, D.7.d, and D.7.e
International

Please provide comments by October 26, 2009.




                                           ii
Table of Contents

Introduction                                                         1

      Objectives                                                     1
      Background                                                     1
      Review of Internal Controls                                    3

Finding A. Transition Planning                                       4

      Recommendations, Management Comments, and Our Response         8

Finding B. Implementation of Cost Controls in the Acquisition Plan   13

      Recommendations, Management Comments, and Our Response         15

Finding C. Oversight of Property                                     18

      Recommendation, Management Comments, and Our Response          20

Finding D. Oversight of Contractors                                  21

      Recommendation, Management Comments, and Our Response          25

Appendices

      A. Scope and Methodology                                       31
             Prior Coverage                                          32
      B. Kuwait Task Orders                                          34
      C. Management Comments on Finding B and Our Response           35

Management Comments

      Logistics Civil Augmentation Program Office                    37
      Defense Contract Management Agency International               52
Introduction
Objectives
Our audit objective was to determine whether the Army adequately planned for the
transition from the Logistic Civil Augmentation Program (LOGCAP) III contract to the
LOGCAP IV contract. See Appendix A for a discussion of the scope and methodology and
prior audit coverage related to the audit objectives.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud, and
Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires thorough investigation and auditing to identify
potential waste, fraud, and abuse in the performance of DOD contracts, subcontracts, and
task and delivery orders for the logistical support of coalition forces in Iraq and
Afghanistan. Further, section 842 requires thorough investigation and auditing of Federal
agency contracts, subcontracts, and task and delivery orders for the performance of
security and reconstruction functions in Iraq and Afghanistan. DOD plans to transfer
logistics support for contingency operations in Kuwait, Iraq, and Afghanistan from the
LOGCAP III contractor to the LOGCAP IV contractors. This audit focused on the task
orders for the transferring of work in Kuwait; however, the Army Sustainment Command
(ASC) will use the Kuwait transition work as the benchmark for transitioning work in Iraq
and Afghanistan.

Background
In December 1985, the Army developed LOGCAP to provide contractor logistics support
to U.S. military forces worldwide. ASC was the LOGCAP executive agent with overall
program management responsibilities until September 2008. On October 1, 2008, even
though the Army Contracting Command became the executive agent, ASC still acted as
the executive agent for LOGCAP. To date, the Army has awarded four LOGCAP
contracts.

LOGCAP Contractors
The LOGCAP III contract relied on only one contractor. ASC developed a new strategy for
awarding the LOGCAP IV as multiple contracts. In April 2008, ASC awarded LOGCAP
IV to three contractors—Kellogg, Brown, and Root; Fluor; and DynCorp (the
LOGCAP IV contractors). The LOGCAP IV includes indefinite-delivery, indefinite-
quantity contracts in which the contractors provide services during contingency
operations.1 Currently, DOD has a need for logistics support for contingency operations in
Kuwait, Iraq, and Afghanistan that will transfer services to LOGCAP IV. All contractors
are required to compete for every task order issued under the LOGCAP IV contract. The


1
 A contingency operation is a military operation designated by the Secretary of Defense as an operation in
which members of the armed forces become involved in military actions against an enemy or opposing
military force; or results in call to duty of uniformed services under any provision of law during a war or
national emergency declared by the President or Congress.

                                                      1
contract awarded to each LOGCAP IV contractor has a potential contract value of
$5 billion per year; the three contracts have an annual potential value of $15 billion. Each
contract includes 1 base year with 9 option years. The three contracts collectively have a
potential contract value of $150 billion.

LOGCAP Task Orders
In addition to the above work, ASC is planning to transfer services from 11 task orders
awarded under the LOGCAP III contract to the LOGCAP IV contracts. The 11 task orders
cost the Army $5 billion of the $31 billion paid to the LOGCAP III contractor for the
LOGCAP III contract. The task orders include two for services in Iraq, three for Kuwait
(see Appendix B for details on the services provided under the Kuwait task orders), and
six for Afghanistan. ASC planned to transfer the three task orders for Kuwait first, then the
six task orders for Afghanistan, and the two task orders for Iraq last. The three Kuwait task
orders were to be first because LOGCAP officials believed that transferring the task orders
in Kuwait would be simpler than in Iraq or Afghanistan. Additionally, the LOGCAP office
planned to use Kuwait as a benchmark for transferring task orders in Iraq and Afghanistan
because the environment in Kuwait is more stable. Therefore, we focused our review on
the transfer of services for Kuwait.

Transfer of Services in Kuwait
Planning for the transfer of services from the LOGCAP III to the LOGCAP IV began in
April 2008 when the Army awarded the contracts to the three performance contractors2
that will deliver services under the LOGCAP—Kellogg, Brown, and Root; Fluor; and
DynCorp. ASC initially planned to begin the transfer of services in Kuwait in
November 2008; however, protests by the LOGCAP III performance contractor postponed
the transition. The task orders for Kuwait cost the Army approximately $347 million,
which included services for the Kuwait Area of Responsibility; Test, Measurement, and
Diagnostic Equipment; and services for Udairi Airfield. The LOGCAP office began
developing a transition plan containing procedures for transferring services from the
LOGCAP III contractor to the LOGCAP IV contractors. The transfer procedures were to
ensure that the operations of the LOGCAP mission and the warfighter would not be
disrupted. The procedures were also to ensure that personnel involved in the transfer
process understood their role and responsibilities. Figure 1 depicts the LOGCAP
organizations involved in the transfer of services and their relationship to one another.




2
  A performance contractor conducts the work to provide the goods and services to the Army as stipulated in
the contract.

                                                     2
                                  Figure 1. LOGCAP Organization


     ASC Contracting                    Army Sustainment
     (LOGCAP III and                    Command (ASC)                     LOGCAP Operations
   LOGCAP IV Procuring                                                     Directorate Deputy
    Contracting Officers)                                                Program Director (DPD)
                                       LOGCAP Executive
            ASC Legal                      Director                      Iraq DPD
                                      (LOGCAP Program Office,
                                          Rock Island, IL)

       Defense Contract                                                   Afghanistan
      Management Agency                                                      DPD
     (DCMA) International                 Serco Contractors
    (Iraq, Afghanistan, Kuwait)                                                                Military
                                                                         Kuwait DPD          Units (CORs)
      Defense Contract Audit Agency

                                                         LOGCAP                Serco Contractors
   Commander, DCMA-                                     Contractors
       Kuwait


  Administrative Contracting Officer, Quality                 Assigned
     Assurance Representative, Property                       Support
    Administrator, and Lead Contracting
      Officer’s Representative (COR)



On February 23, 2009, the transfer of services in Kuwait began. ASC is planning to
transfer services for Afghanistan in October 2009. ASC is still determining what services
should be transferred in Iraq, where operations are planned to decrease.

ASC made the Defense Contract Management Agency (DCMA) the administrator of the
LOGCAP III and LOGCAP IV contracts. As contract administrator, DCMA provides
acquisition support, contract management, and property accountability services for the
LOGCAP contracts.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for LOGCAP. Specifically, the LOGCAP office needs to improve internal
controls over LOGCAP transition planning, implementing cost-control methods, oversight
of LOGCAP property, and DCMA administrative oversight. Implementing all
recommendations will improve planning by the LOGCAP office and DCMA to transfer the
11 LOGCAP III task orders to the new performance contractors. A copy of this report will
be provided to the senior officials responsible for internal controls for the Army and
DCMA.


                                                   3
Finding A. Transition Planning
Although the LOGCAP office planned for the transfer of 11 LOGCAP III task orders to
the new LOGCAP IV performance contractors, planning efforts still needed
improvement. The 11 task orders cost the Army $5 billion of the $31 billion paid to the
contractor for the LOGCAP III contract. As of March 2009, program officials had not
adequately planned significant tasks for transferring LOGCAP property and work or
established the Serco3 contractors’ role and responsibilities in Kuwait. Planning was
insufficient because the LOGCAP Executive Director did not ensure that all
organizations involved in the transition process had the most up-to-date transition plan or
finalize transfer procedures before the transfer of work began. Additionally, while the
Deputy Program Director for Kuwait (DPD-Kuwait) developed a Kuwait plan, he did not
involve all personnel in the planning process or include country-specific procedures. As a
result, transition timelines may be delayed, and the sequence of events planned for the
transfer of work may be disrupted. It is essential that the coordination and procedures
improve so that the most critical transfer of work, planned for Iraq and Afghanistan, can
be accomplished with minimal effect on the mission and warfighters in those countries.

Comprehensive Transition Plan
Throughout the course of the audit, LOGCAP officials provided us with multiple
versions of a transition plan; however, each organization we visited provided a different
version as the current transition plan or had no plan at all. The Executive Director did not
validate that all organizations involved in the transition process had the most up-to-date
version of the transition plan. The various plans were not signed, and some were not
dated. On February 23, 2009, the Executive Director issued a comprehensive transition
plan. Although the comprehensive plan was much improved, the Executive Director did
not finalize transfer procedures before the transfer of work began. Specifically, the
comprehensive plan did not include the Serco contractor role and responsibilities or
DCMA procedures to transfer hazardous material and warehouse operations. The
Executive Director should have included these procedures in the comprehensive plan
because they apply to Kuwait as well as to transferring work in Iraq and Afghanistan.

Transfer of LOGCAP Property and Work
Although the LOGCAP office planned for the transfer of 11 LOGCAP III task orders to
new performance contractors, planning efforts needed improvement. As previously stated,
the Army paid approximately $31 billion to the LOGCAP III contractor, of which
$5 billion was paid for work on the 11 task orders planned for transfer to the LOGCAP IV
contractors. As of March 2009, program officials had not adequately planned significant
tasks for transferring at least 1.1 million line items worth $4 billion in LOGCAP property.
The LOGCAP office had required DCMA to develop a property plan that included
procedures for transferring LOGCAP property from the LOGCAP III contractor to the


3
 Serco contractors provide administrative support to the LOGCAP office and contracting officials when
executing LOGCAP contracts.


                                                   4
LOGCAP IV contractors by September 15, 2008. Additionally, the program office had
required DCMA to develop procedures for determining when the LOGCAP IV incoming
performance contractors have reached full operational capability4 and could fully perform
LOGCAP work. However, the LOGCAP office never verified that DCMA officials
developed the required procedures.

Procedures for Transferring Property
At the beginning of the audit, DCMA officials provided different versions of their
property plan; however, none included procedures for transferring property from
one contractor to the others. LOGCAP officials, DCMA, and the LOGCAP contractors
all agreed that the transfer of LOGCAP property to new performance contractors in
Kuwait would be the most difficult and cumbersome process to complete because of the
amount of property that was scheduled to transfer. The lack of procedures caused
confusion among DCMA officials. Specifically, DCMA-Houston and DCMA-Kuwait
personnel described different procedures for transferring LOGCAP property in Kuwait.

A DCMA-Houston official and one of the LOGCAP IV contractors stated that the
property and equipment would transfer directly from the LOGCAP III to the
LOGCAP IV contractors. In addition, the DCMA-Houston official stated that the transfer
would occur with no Government oversight unless conflicts arose. In contrast,
DCMA-Kuwait and LOGCAP-Kuwait officials stated that the property and equipment
would transfer from the LOGCAP III contractor to the Government. Then the
Government would be responsible for transferring the LOGCAP property to the
LOGCAP IV performance contractors. During our visit to Kuwait in December 2008, the
Commander, DCMA-Kuwait, began updating the draft DCMA-Kuwait property plan.
The DCMA property plan was included as an annex to the comprehensive transition plan
issued on February 23, 2009. However, the procedures for transferring LOGCAP
property in the DCMA property plan still were not specific as to whether the property
would transfer from contractor to Government to contractor or from contractor to
contractor. Therefore, DCMA should clarify the procedures to transfer LOGCAP
property in the property plan to eliminate confusion during future transitions.

Also, the property plan lacked detailed procedures for removing hazardous materials and
instructions on when to transfer contractor warehouse operations. The property plan
stated that hazardous material would be transferred in accordance with applicable laws
and regulations. However, DCMA-Kuwait officials were unable to explain the
procedures for transferring hazardous material and did not include detailed procedures in
the plan. Further, as of March 2009, LOGCAP officials were still planning when to
transfer warehouse operations. This decision is important because the contractor owns
and operates the warehouse; however, the inventory in the warehouse belongs to
LOGCAP. When the program office transfers warehouse inventory to the LOGCAP IV
contractors, the LOGCAP III contractor may still need access to the inventory. Access to


4
 Full operational capability occurs when the Executive Director formally decides that all transition
activities are complete and the LOGCAP IV contractors are ready to assume contract obligations in support
of the Government and military units.


                                                   5
the inventory may still be necessary because some inventory may be needed to perform
work on other LOGCAP III task orders, which will not transfer to the LOGCAP IV
contract. Therefore, LOGCAP officials should decide when to transfer warehouse
operations to avoid confusion between the contractors. The property plan was still in draft
when the transfer of property in Kuwait began in February 2009.

Procedures for Transferring Work
There were multiple versions of the LOGCAP transition plan, and a majority of these
versions stated that the transfer of the task order work “will end when DCMA validates
that the LOGCAP IV contractors reached full operational capability to perform LOGCAP
work.” DCMA would then recommend to the Executive Director that he certify the
transfer of work for a task order is complete. During the audit, we tried to determine how
DCMA planned to validate when the LOGCAP IV contractors have reached full
operational capability. Some DCMA officials stated that they were not responsible for
developing the procedures, while others stated that the procedures were still being
developed. Although they were responsible, we determined that DCMA had not
developed procedures for validating when the LOGCAP IV contractors have reached full
operational capability to perform LOGCAP work until after the LOGCAP office awarded
the transferring task orders in Kuwait.

Contractor Role and Responsibilities
LOGCAP officials did not establish or include in the comprehensive plan the role and
responsibilities of Serco contractors. Serco contractors provide administrative support to
the LOGCAP office and the procuring contracting officer (PCO)5 when executing
LOGCAP contracts. The Serco contractors were significantly involved in efforts to
transfer LOGCAP work. LOGCAP officials stated that the Serco contractors acted as
liaisons between the LOGCAP III and LOGCAP IV contractors and worked closely with
LOGCAP officials. According to LOGCAP and DCMA officials, the responsibilities of
the Serco contractors included developing independent government cost estimates and
performing property analyst tasks during the transition. However, LOGCAP officials did
not define Serco’s role, stating that the contractor would do whatever was needed to
complete the transfer of work. It is important that the Executive Director define the
contractor’s role and responsibilities to ensure that the contractor does not perform tasks
that are the responsibility of the Government. For example, the Serco contractors’
services rendered for independent government cost estimates may approach being
inherently governmental functions as described by Federal Acquisition Regulation
Subpart 7.5, “Inherently Governmental Functions.” It is important that the Executive




5
  According to the Federal Acquisition Regulation, PCOs have authority to enter into, administer, or
terminate contracts and make related determinations and findings. PCOs may bind the Government only to
the extent of the authority delegated to them. PCOs must ensure that all requirements of law, executive
orders, regulations, and all other applicable procedures, including clearances and approvals, have been met
before entering into a contract.



                                                     6
Director define the contractor’s role and responsibilities to ensure that the contractor does
not perform tasks that are the responsibility of the Government.

Plan for Transfer of Work in Kuwait
According to the Executive Director, he relied on the DPDs for Kuwait, Iraq, and
Afghanistan to plan the transfer of work in those countries. The Executive Director
required that the DPDs develop a detailed plan that included country-specific procedures
for transferring work. However, the DPD-Kuwait did not adequately coordinate with
DCMA and military units, which rotate every 6 to 12 months, to ensure that they were
fully aware of the LOGCAP transition efforts taking place in Kuwait. While the
DPD-Kuwait developed a Kuwait plan, he did not involve all personnel in the planning
process or include country-specific procedures.

Coordination With Military Units
The comprehensive transition plan required the DPD-Kuwait to make the military units6
supported by the LOGCAP contract aware of the transition. Their awareness was needed
to ensure that no conflicts existed between transition plans and the mission of the units.
The DPD-Kuwait was also to communicate to the units the methodology and funding
required to support the transfer of work to a new contractor. Because of the constant
rotation of units in theater, the DPD-Kuwait needs to ensure continuous communication.
To facilitate the transfer of services in Kuwait, the DPD-Kuwait should have included the
units early on in the planning; however, he did not. In fact, unit officials stated that they
had not seen a transition plan for Kuwait and that the first time they heard about the
details of the transfer was during our visit to Kuwait in December 2008. According to
unit officials, the primary unit in Kuwait that would support LOGCAP operations had
been in country for 1 month before the transfer of work in Kuwait was to begin and
should have been briefed about the transfer of work there. When asked, the DPD-Kuwait
stated that he would include the units in the planning when more specific information was
known about the transition.

Further, unit officials stated that the DPD-Kuwait did not discuss with them how to
transfer LOGCAP work without interrupting their mission. Unit officials stated that the
LOGCAP III contractor performs the majority of the work to support the unit missions
and stated that they had serious concerns about the transfer of work. For example, the
LOGCAP III contractor managed and staffed work at six of eight bases in Kuwait. The
Executive Director relied on the DPD-Kuwait to ensure that the units understood their
responsibilities when transferring work to new contractors; however, the Executive
Director did not ensure that the DPD-Kuwait fully planned the transfer of work in Kuwait
or coordinated with the units responsible for completing the work.




6
  The military units are important to the transition because LOGCAP operations support the missions of
these military units in theater. Further, the military units provide subject matter experts to act as the CORs
and conduct contractor oversight.


                                                       7
Kuwait-Specific Procedures
The DPD-Kuwait did not include country-specific procedures in the Kuwait plan. For
instance, the military units that support LOGCAP work generally rotate every 6 to
12 months. Additionally, the Kuwait Government has extensive entry requirements and
complex procedures for issuing badges, which could significantly delay getting new
contractors into the country. However, the DPD-Kuwait did not develop procedures for
keeping unit officials informed about the transition or handling entry and badge-issuing
requirements.

Although the transfer of services in Kuwait began in February 2009, the DPD-Kuwait
should identify the country-specific procedures that can be used by DPDs for Iraq and
Afghanistan when transferring work in those countries. Further, the Executive Director
should ensure that the DPDs for Iraq and Afghanistan fully engage all personnel and
organizations involved in transferring services to develop country-specific procedures to
facilitate the transfer.

Conclusion
Failure to support the warfighter during the transfer of work is not an option. Organizations
involved in the transfer of work may not be fully aware of the procedures or their
responsibilities, and the lack of awareness could delay planned transition timelines and
disrupt the sequence of events planned for the transfer of work. The LOGCAP office
should finalize all procedures that could affect the transfer of the LOGCAP work and
include the procedures in the comprehensive transition plan. Further, the program office
should ensure that all personnel involved in the transfer of work receive a signed and dated
plan. This will ensure that all such personnel are using the current and approved version of
LOGCAP procedures. Lastly, the Executive Director and DPDs must adequately
coordinate with DCMA and members of military units, who rotate every 6 to 12 months, to
ensure that they are fully aware of the LOGCAP transition efforts taking place. Adequate
coordination with DCMA and the military units would ensure that all personnel involved in
the transfer process understand their role and responsibilities. It is essential that the
coordination and procedures improve so that the most critical transfer of work, planned for
Iraq and Afghanistan, can be accomplished with minimal adverse effect on the mission and
warfighters in those countries. Additionally, documenting lessons learned for the Executive
Director and DPD may identify ways to improve the transfer of work in Iraq and
Afghanistan, thus reducing any potential adverse effect on the LOGCAP mission and the
warfighters.

Recommendations, Management Comments, and
Our Response
A. We recommend that the Executive Director, Logistics Civil Augmentation
Program:

       1. Direct the Commander, Defense Contract Management Agency
International, to:



                                             8
            a. Clarify procedures to transfer property from the Logistic Civil
Augmentation Program III contractor to the Logistic Civil Augmentation
Program IV contractors in the Defense Contract Management Agency property
plan.

Management Comments
The Executive Director, LOGCAP, disagreed. The Executive Director stated that he
issued the LOGCAP transition plan on February 23, 2009, which included Annex C, the
DCMA International Property Transition Management Plan. He stated that Annex C
effectively describes the Federal Acquisition Regulation process and procedures for
transferring property from the current contractor to the new contractor. Although the
Executive Director stated that the process implied a transfer from contractor to
contractor, DCMA International agreed to amend Annex C to incorporate specific
language to make it clear that the transfer of property goes from contractor to contractor.

Our Response
Although the Executive Director, LOGCAP, disagreed, his planned action to require
DCMA International to amend Annex C met the intent of the recommendation.
Accordingly, no further comments to the final report are required.

            b. Finalize procedures to remove hazardous material and transfer
warehouse operations.

Management Comments
The Executive Director, LOGCAP, disagreed. He stated that the intent of Annex C was to
provide strategic guidance to the three contingency areas regarding operations for
transferring Government property. The Executive Director stated that it was not practical
or reasonable for Annex C to identify hazardous material or waste disposal procedures
for each country. The Executive Director said that the contractors maintain the hazardous
material yards, not LOGCAP. The Executive Director stated that the Commander,
DCMA International, directed all Contract Management Offices to develop a supplement
to Annex C identifying country-specific procedures for disposing of hazardous material
in their area of responsibility. He stated that the procedures would be included in a theater
fragmentation order. The Executive Director explained in his comments the DCMA
Kuwait process for disposing of hazardous materials during the transition process. The
Executive Director noted that the transfer of work in Kuwait was complete and
successful.

Further, the Executive Director stated that until late in the transition process, the
LOGCAP team ensured that the incumbent contractor, the LOGCAP III contractor,
controlled the material warehouse. The Executive Director stated that once the incoming
LOGCAP IV contractors received the property, the LOGCAP III contractor had no rights
to the property. Further, he stated that if the LOGCAP III contractor had other
LOGCAP III task orders to fulfill, any property needed to continue providing services
was identified and screened out before any property transferred to the LOGCAP IV
contractors.


                                             9
Our Response
Although the Executive Director, LOGCAP, disagreed, his comments indicate that
corrective actions were taken. The Commander, DCMA International directed all
Contract Management Offices to develop a supplement to Annex C that includes
country-specific procedures for disposing of hazardous material and the control of
warehouse operations was determined. Accordingly, no further comments to the final
report are required.

       2. Finalize all procedures in the comprehensive transition plan and include
the role and responsibilities of the Serco contractor in the comprehensive transition
plan.

Management Comments
The Executive Director, LOGCAP, disagreed. He stated, however, that he would review
Serco’s role and responsibilities and, if required, adjust the comprehensive transition plan
accordingly. The Executive Director stated that the Serco contract defined the role and
responsibilities of Serco contractors. The Executive Director stated that a U.S.
Government official gives direction to Serco property analysts. The Executive Director
stated that Serco’s input to property matters is strictly advisory. The Executive Director
also stated that Serco cost analysts provide independent cost estimates to Government
officials for final review. He stated that he did not consider the development of
independent cost estimates by Serco contractors as an inherently governmental function.

Our Response
The Executive Director, LOGCAP, did not fully address the recommendation. While we
recognize that the Serco contract defines contractors’ role and responsibilities, the
contract did not define the administrative support Serco contractors would provide during
the LOGCAP transition. Serco employees were significantly involved in the transfer of
work for LOGCAP; however, the comprehensive transition plan did not discuss their role
and responsibilities. During the audit, officials stated that Serco would do whatever was
asked of it to complete the transfer of work. We request that the Executive Director
provide in response to the final report the outcome of his review and show that he
included Serco’s role and responsibilities in the updated comprehensive transition plan.

      3. Distribute the most up-to-date, signed, and dated copy of the
comprehensive transition plan to all personnel involved in the Logistics Civil
Augmentation Program transition after the changes in Recommendations A.1
and A.2 are made to the plan.

Management Comments
The Executive Director, LOGCAP, agreed with the intent of the recommendation. He
stated, however, that he disagreed with our conclusion. The Executive Director stated
that, as indicated in the report, he updated and distributed the comprehensive transition
plan during the course of our review. The Executive Director stated that the
comprehensive transition plan is a living document and would change as needed to reflect


                                            10
the conditions on the ground. The Executive Director stated that it is unrealistic to expect
the comprehensive transition plan to be a rigid document and not reflect operating in a
hostile or changing wartime environment. The Executive Director said that he is updating
the comprehensive transition plan to include lessons learned from the Kuwait transition.
He stated that updates to the plan would be completed by September 4, 2009, when it is
to be distributed to all parties involved in the Iraq and Afghanistan transition.

Our Response
The Executive Director, LOGCAP, comments indicate that he took corrective action by
distributing the plan to all parties on September 4, 2009. However, the Executive
Director did not distribute the updated plan on September 4, 2009 as intended.
According to a LOGCAP official, the plan will be distributed on September 18, 2009.
We request that the Executive Director provide us with the updated plan in response to
the final report that includes the changes required by Recommendations A.1 and A.2 of
this report.

       4. Validate that the Deputy Program Directors in Iraq and Afghanistan:

               a. Execute their role and responsibilities for transferring services as
outlined in the comprehensive transition plan.

Management Comments
The Executive Director, LOGCAP, agreed with the intent of the recommendation. He
stated, however, that he disagreed with our conclusion. The Executive Director stated that
he, along with the LOGCAP transition team, validated the DPD-Kuwait’s role and
responsibilities. He stated that, through weekly transition meeting calls, he is satisfied
that the DPDs for Iraq and Afghanistan understand their transition role and
responsibilities. The Executive Director stated that as part of his update to the
comprehensive transition plan, he would also update the roles and responsibilities of the
DPDs for Iraq and Afghanistan.

Our Response
The Executive Director, LOGCAP, comments indicate corrective actions were taken. We
request that the Executive Director provide a copy of the updated plan in response to the
final report documenting the changes to the role and responsibilities of the DPDs for Iraq
and Afghanistan.

               b. Develop a country-specific transition plan that details the role and
responsibilities for transferring services from the Logistics Civil Augmentation
Program III contractor to the Logistics Civil Augmentation Program IV
performance contractors.

Management Comments
The Executive Director, LOGCAP, agreed. He stated that the DPDs will assume
responsibility for the transfer of work in their respective countries following the



                                             11
postaward conferences. The Executive Director stated that he intends to deploy members
of the LOGCAP IV transition team to Iraq and Afghanistan to assist the DPDs. The
Executive Director stated that the DPD transition plans would reflect the authoritative
representation of military commanders. The Executive Director stated that the DPDs
would complete a country-specific transition plan 60 days after the postaward conference.

Our Response
The Executive Director, LOGCAP planned action meets the intent of the
recommendation by stating that he will require the DPDs to complete a country-specific
plan 60 days after the postaward conference. We request that he provide a copy of the
DPD country-specific transition plan when complete.

              c. Include the Defense Contract Management Agency and the military
units in country in the planning process for transferring Logistics Civil
Augmentation Program work so that warfighter operations will not be interrupted.

Management Comments
The Executive Director, LOGCAP, agreed but stated that he disagreed with the
implication that he did not include DCMA and the military units in the planning. The
Executive Director stated that the DPD-Kuwait did include DCMA-Kuwait and the
military units in the planning process for the transition. The Executive Director provided
numerous examples in his response of the DPD-Kuwait coordination efforts. He also
stated that over the last 6 months the DPD-Afghanistan, DCMA, and the military units
have met to discuss the transition and its operational impact. The Executive Director
stated that in August 2009 there would be a postaward and transition conference in which
DCMA would be a key participant. He stated that the purpose of the conference is to
develop and integrate an Afghanistan-specific transition plan that details the roles and
responsibilities of the DPD-Afghanistan, DCMA, contractors, and the military units. The
Executive Director stated that by September 30, 2009, the DPD-Afghanistan would
complete the transfer of services from the LOGCAP III to the LOGCAP IV contractors.

Our Response
The Executive Director, LOGCAP comments indicate corrective actions were and will be
taken and therefore, no further comments to the final report are required.




                                           12
Finding B. Implementation of Cost Controls
in the Acquisition Plan
LOGCAP began nearly 25 years ago, and the Army has spent almost $31 billion for
services under the LOGCAP III contract. However, the LOGCAP Executive Director, in
coordination with the LOGCAP IV PCO, had not developed a standard performance
work statement for contractors performing LOGCAP work in Kuwait. Additionally, the
PCO did not identify which goods and services could be purchased using firm-fixed-price
task orders. The PCO focused more on the immediate need to award contracts to the
LOGCAP IV contractors than on implementing cost-control methods established in the
ASC acquisition plan. As a result, the PCO will not meet the requirements of the
LOGCAP IV acquisition plan. The sooner the PCO standardizes performance work
statements and establishes firm-fixed-price task orders for goods and services, the sooner
the Army may be able to realize quantifiable monetary benefits, and better manage costs.

Acquisition Plan
LOGCAP began nearly 25 years ago, and the Army has spent almost $31 billion for
services under the LOGCAP III contract. According to the acquisition plan for the
LOGCAP IV contract, the LOGCAP office intended to use a standard performance work
statement, including a pricing model, to reduce the cost of logistics support. The standard
performance work statement would also be used by LOGCAP officials to provide
stability and order in requirements generation.

The Army awarded the LOGCAP III and LOGCAP IV contractors indefinite-delivery,
indefinite-quantity contracts. The task orders the Army awards under these contracts must
be in support of a contingency operation. According to the LOGCAP IV acquisition plan,
the use of indefinite-delivery, indefinite-quantity contracts allows the PCO to choose
from three contract types—firm fixed price, cost plus award fee, and cost plus fixed fee.
However, the PCO planned to award only cost-plus-award-fee task orders. The
acquisition plan stated that using cost-plus-award-fee tasks order for contingency
operations is appropriate because that type of task order motivates contractors to provide
excellent performance.

The Army, however, has the ability to issue firm-fixed-price contracts when costs can
reasonably be estimated, and cost-plus task orders for work with uncertain costs. To
assist with cost control and help officials developing requirements, the PCO could
develop a standard performance work statement that identifies services that could be
purchased at a fixed price.

Standard LOGCAP Performance Work Statement
The LOGCAP Executive Director and the PCO did not develop a standard performance
work statement before issuing the three Kuwait task order contracts. DCMA and
contractors in Kuwait stated that the LOGCAP IV performance work statement was not
specific, allowing the contractors to make assumptions about how to accomplish the work


                                            13
in Kuwait. Additionally, the LOGCAP III contractor and the military units stated that the
LOGCAP IV performance work statement did not include all the requirements to support
the contingency operations in Southwest Asia. The PCO stated that she planned to
complete a standard performance work statement before competing the transferring task
orders for Iraq and Afghanistan.

To help Commanders in theater scrutinize all expenditures to verify that they meet
mission requirements, the PCO stated that the ASC Acquisition Center planned to
develop a pricing model to include in the standard performance work statement for the
LOGCAP IV task orders. The PCO stated that the pricing model would essentially
include menu options that would identify prices by region for specific service
requirements, such as base life support. The PCO also stated that the standard
performance work statement would provide the units with a baseline for developing the
requirements. Baseline requirements would be helpful because the units continuously
rotate in theater. However, as of March 2009, the PCO had not completed the pricing
model. The Executive Director, in coordination with the LOGCAP IV PCO, should make
developing a standard performance work statement a priority to ensure that the warfighter
receives quality goods and services at the best price, which in many cases may be a firm
fixed price. The standard performance work statement would also allow the LOGCAP
office to more accurately evaluate contractor performance. Further, the PCO should
develop the pricing model to include in the standard performance work statement.

Absent a standard performance work statement to guide him, the DPD-Kuwait developed
a performance work statement for the LOGCAP contractors in Kuwait. The DCMA
administrative contracting officer (ACO) stated that the DPD-Kuwait did not request
input from DCMA when developing the performance work statement. As the contract
administrator, DCMA could have provided valuable input to the performance work
statement. In fact, the DCMA ACO reported having provided the DPD-Kuwait with
comments and corrections for the performance work statement that the DPD-Kuwait did
not incorporate. In addition, the official stated that the DPD-Kuwait developed the
performance work statement based on the military units’ Tactics, Techniques, and
Procedures documents and statements of work from the LOGCAP III task orders. The
Tactics, Techniques, and Procedures documents and statements of work taken from the
contract contain the requirements and unit operations conducted at each site to complete
the units’ mission. The DPD is responsible for overseeing current operations, assisting
the military units with requirements development, and preparing the performance work
statement under the LOGCAP III and IV task orders. However, officials from DCMA
and the units stated that the Tactics, Techniques, and Procedures documents and
statements of work taken from the contract used by the DPD-Kuwait had not been
updated in more than a year and did not reflect current operations.

When asked, the LOGCAP IV PCO reported she was not aware of what happened
between officials in Kuwait during the process of developing the performance work
statement. The LOGCAP IV PCO stated that the DPD-Kuwait is required to coordinate
the performance work statement with DCMA and the military units and resolve any
problems before providing the PCO with the documents.



                                           14
Firm-Fixed-Price Contracts
As noted, LOGCAP officials did not identify which goods and services under the
LOGCAP task orders could be purchased using firm-fixed-price task orders. According
to the acquisition plan, the indefinite-quantity, indefinite-delivery contract awarded to the
LOGCAP IV contractors allowed the PCO to award firm-fixed-price task orders when
costs could be reasonably estimated. For example, the LOGCAP IV PCO stated that the
cost of a meal could be reasonably estimated using the pricing model discussed above.
The PCO stated that the number of meals needed may not be known until the requirement
is generated, but that the standard meal price could be included. Because LOGCAP was
established in 1985, nearly 25 years ago, some costs related to contingency operations
could reasonably be fixed based on experience; however, the LOGCAP IV PCO has yet
to identify those costs. Limiting the use of cost-plus-award-fee contracts could reduce the
likelihood of contractors’ overcharging the Government for goods and services and put
less strain on overburdened oversight resources. We recommend that the LOGCAP IV
PCO identify and establish firm fixed prices for goods and services to ensure that the
Government is getting the best value.

Conclusion
The PCO focused more on the immediate need to award contracts to the LOGCAP IV
contractors than on implementing cost-control methods established in the acquisition
plan. The sooner the PCO standardizes performance work statements and establishes
firm-fixed-price contracts for goods and services, the sooner the Army may be able to
realize quantifiable monetary benefits. Without a standard performance work statement,
the PCO may not be able to prevent overcharging on the LOGCAP IV contract.

Management Comments on the Finding and
Our Response
A summary of management comments on the finding and our audit response are in
Appendix C.

Recommendations, Management Comments, and
Our Response
Revised Recommendation
As a result of management comments, we revised draft report Recommendation B.2 to
clarify that the warfighter requirements, not missions, should be included in performance
work statements.

B. We recommend that the Executive Director, Logistics Civil Augmentation
Program:

       1. Require the procuring contracting officer to:




                                             15
               a. Complete the standard performance work statement for the
Logistics Civil Augmentation Program before competing the transferring task
orders for Iraq and Afghanistan.

              b. Use historical data from prior Logistics Civil Augmentation
Program work to complete a pricing model to assist units in developing
requirements.

              c. Establish a plan to identify goods and services within the task
orders that could be acquired using a firm fixed price, and develop firm-fixed-price
task order requirements.

Management Comments
The Executive Director, LOGCAP, disagreed with Recommendations B.1.a and B.1.b.
For Recommendation B.1.a, the Executive Director stated that he completed the
development of a standard performance work statement and that contracting officials
actively participated in its development. The Executive Director stated that program and
contracting officials also developed a corresponding pricing matrix, which was used to
develop Afghanistan task orders. The Executive Director stated that the LOGCAP office
and contracting officials acknowledge the value of incorporating a standard performance
work statement for recurring LOGCAP services. He stated that he intends to establish a
similar approach when developing base life support requirements for Iraq.

For Recommendation B.1.b, he stated that the Afghanistan task orders contain
competitively established price matrices from which the supported units may execute
requirements as needed. The Director stated that any service in the price matrix can be
used at a known price without the need for price negotiation.

The Executive Director, LOGCAP, agreed with Recommendation B.1.c. He stated that
the LOGCAP office and contracting officials would use firm-fixed-price task orders
when feasible. The Executive Director stated that changing operations in Iraq and
Afghanistan dictate the continued use of cost-type contracts. The Executive Director
further stated that he is working with the Joint Contracting Command-Iraq to identify
services that could be purchased with contracts other than LOGCAP. The Executive
Director also stated that when requirements do not support the use of fixed pricing, the
LOGCAP office and contracting offices would use service price matrices to maintain the
price-related benefits of the competition. The Executive Director said that the service
price matrices allow the supported unit to select standard LOGCAP services from a price
list, thus minimizing administrative burdens, maintaining competitive fees, and
establishing a benchmark for cost-control measurement.

Our Response
The Executive Director, LOGCAP disagreed, in part, with the recommendation; however,
his comments indicate corrective actions were taken. In response to the final report, we
request that he provide a copy of the standard performance work statement for Iraq and
Afghanistan. We also request that he discuss whether he plans to document his decision


                                            16
to use firm-fixed-price task orders when feasible and whether he will require the PCO to
explain in the contract file when task order requirements do not support the use of fixed
pricing.

       2. Validate that the Deputy Program Directors coordinate with the Defense
Contract Management Agency and the military units in country when developing
performance work statements to guarantee that they accurately reflect warfighter
requirements.

Management Comments
The Executive Director, LOGCAP, disagreed. He stated that the performance work
statement should be based on conditions and service requirements, not warfighter
missions.

Our Response
In response to management comments, we revised the recommendation for clarity.
Although we agree with the Executive Director’s comments, the warfighters we
interviewed in Kuwait stated that the performance work statement for the Kuwait task
orders did not include all the requirements they needed to support their mission.
Additionally, DCMA officials stated in interviews that the performance work statement
was very broad. We request that the Director provide comments in response to the final
report on the revised recommendation.




                                            17
Finding C. Oversight of Property
The LOGCAP office did not properly oversee property worth at least $4 billion for the
program. Specifically, DCMA officials were confused on the joint inventory process to
transfer the property to the LOGCAP IV contractors. This confusion occurred because
the LOGCAP Executive Director did not ensure that DCMA finalized the procedures to
transfer property. As a result, the Army has no assurance that all Government property
has been accounted for and will be transferred to the LOGCAP IV contractors.

Guidance on Government Property and Equipment
Federal Acquisition Regulation Part 45, “Government Property,” states that under a cost
contract, the Government maintains ownership of all property that is Government-
furnished property until the property is properly disposed of. Federal Acquisition
Regulation Part 45 defines Government-furnished property as property in the possession
of, or directly acquired by, the Government and subsequently furnished to the contractor
for the performance of the contract.

Inventory of LOGCAP Property
The LOGCAP office provided insufficient oversight of the property for the program. As
of April 17, 2009, the DCMA Property Administrator stated that there were at least
1.1 million lines of LOGCAP property7 totaling almost $4 billion. While the program
office required in the contract that the contractor maintain an inventory of the LOGCAP
property, the LOGCAP PCO did not require that the LOGCAP III contractor track the
property by task order. According to a contractor memorandum dated June 20, 2008,
equipment acquired through LOGCAP III task orders was used to benefit multiple task
orders in Kuwait and to support operations in Iraq and Afghanistan.

Physical Inventory and Transfer of Property
According to DCMA-Houston officials, the transfer process begins with the LOGCAP III
contractor conducting a 100-percent physical inventory of all LOGCAP property in
Kuwait. Next, DCMA is required to validate, through sampling, the LOGCAP inventory
to ensure that it is accurate and complete. DCMA-Houston officials stated that the
validation of the LOGCAP III contractor’s inventory should be verified immediately
following the completion of the 100-percent inventory. Then, the LOGCAP III and IV
contractors are to conduct a joint inventory of the property to determine usability of and
need for the property. DCMA-Houston officials stated that, during the joint inventory
process, they would reconcile any conflicts between the contractors. Lastly, DCMA is to
certify when the contractors have reached full operational capability and that the transfer
process is complete. Figure 2 depicts the actual timeline for the transfer of property in



7
  DCMA and LOGCAP officials refer to entries of property and equipment in the LOGCAP III contractor’s
inventory system as “property line items.” LOGCAP officials stated that a property line item is a category
of property that can include multiple pieces of property or equipment.


                                                   18
Kuwait. While the process and sequence of events to transfer services for other LOGCAP
task orders will remain the same, the dates will change.

              Figure 2. Timeline for the Transfer of Property in Kuwait


                    October 2008 - DCMA validated        February 23, 2009 – Transfer of
                    LOGCAP III contractor’s              services began
                    inventory

                                                         February 2009 - GAO overruled protests
                                                         from the LOGCAP III contractor




       September 30, 2008           November – December 2008             Date Unknown –
       LOGCAP III contractor        LOGCAP IV Kuwait task orders         LOGCAP IV contractor
       completed 100-percent        were awarded                         determined to be fully
       inventory                                                         operationally capable
                                    November – December 2008         March – May 2009
                                    LOGCAP IV Kuwait task            Joint Inventory
                                    orders were protested by
                                    LOGCAP III contractor

There was confusion among DCMA officials concerning the joint inventory procedures.
For example, one DCMA-Houston official stated that a DCMA property administrator will
not be present during the joint inventory but that Serco contractors will be. The
DCMA-Houston official explained that DCMA personnel will be involved in the transfer
of property only when disputes arise between the contractors. Lastly, the DCMA-Houston
official stated that if a DCMA property administrator is not available to handle the conflict,
a contractor from Serco will resolve the issue.

In contrast, a DCMA-Kuwait official stated that the LOGCAP III contractor, the
LOGCAP IV contractors, and DCMA personnel will jointly participate in the transfer of
property. This DCMA-Kuwait official stressed that a DCMA property administrator and
quality assurance representative (QAR) will be present during the entire inventory
process. DCMA-Kuwait officials acknowledged that a Serco property analyst will also be
present to assist in and observe the inventory process. However, officials stated that a
DCMA property administrator will accompany the Serco contractors or QAR at all times.
Further, as discussed in finding A, DCMA officials did not finalize procedures to
determine when the contractors have reached full operational capability until after
LOGCAP officials awarded the task orders.

Conclusion
For the LOGCAP IV contracts, the Government is required to track property. However,
the Army has no guarantee that the property and equipment that the LOGCAP III
contractor is transferring to the LOGCAP IV contractors is all of the property and
equipment owned by the Government under the LOGCAP III contract. Also, there is


                                             19
confusion among DCMA officials on the joint inventory process to transfer $4 billion in
LOGCAP property to the LOGCAP IV contractors, confusion that could ultimately delay
transition timelines.

Recommendation, Management Comments, and
Our Response
C. We recommend that the Executive Director, Logistic Civil Augmentation
Program, require that the Commander, Defense Contract Management Agency
International, ensure that a property administrator document and maintain an
accurate list of Logistic Civil Augmentation Program IV property and equipment
by task order to ensure accountability for the property.

Management Comments
The Executive Director, LOGCAP, disagreed. He stated that the Federal Acquisition
Regulation requirements in effect at the time the contracting office awarded the
LOGCAP III contract prohibited the LOGCAP office from keeping duplicate records.
The Executive Director acknowledged that a June 2007 update to the Federal Acquisition
Regulation removed that direction. He stated that the LOGCAP IV contracts contain
Federal Acquisition Regulation clause 52.245-1, which requires the contractor to control
the use of, preserve, protect, repair, and maintain Government property. The Executive
Director said that DCMA provides contract property administration services to the
LOGCAP office as described in Federal Acquisition Regulation subpart 42.201 and
part 45. He stated, however, that DCMA responsibilities do not include maintaining a
listing of the Government property held by each LOGCAP contractor. Rather, the
Executive Director stated that the DCMA property administrator performs an annual
analysis to validate that the contractor is performing in accordance with the contract.

Our Response
We recognized the validity of the Executive Director’s concerns about the Government
maintaining property records for LOGCAP III, and modified the finding to remove those
sections that referred to the Government maintaining those records. However, his
comments indicate that the LOGCAP IV contract requires DCMA to maintain a listing of
LOGCAP IV property and equipment as described in Federal Acquisition Regulation
subpart 42.201. Accordingly, no further comments to the final report are required.




                                           20
Finding D. Oversight of Contractors
The QAR and contracting officer’s representatives (CORs) in Kuwait did not evaluate
contractor performance on a consistent and routine basis. Conducting consistent and
routine evaluations is essential to verify that contractors are accurately rated on
performance. Further, the CORs provided inaccurate ratings on 5 of the 10 performance
reviews of the LOGCAP III contractor provided to the Performance Evaluation Board.
This lack of administrative oversight occurred because DCMA did not hold the QAR and
CORs accountable for not completing their surveillance requirements, and the QAR did
not follow the policies and procedures established by the Commander, DCMA
International. Also, the QAR did not adequately train the CORs on assessing contractor
performance. As a result, DCMA may not be able to identify trends in contractor
performance. Further, the Government may have a skewed basis for determining
contractor performance ratings during the transfer of services in Kuwait. Lastly, the
Government could be at risk of paying erroneous award fees to the LOGCAP III and
LOGCAP IV contractors if awards are based on inaccurate information obtained from the
LOGCAP Performance Evaluation Board. The award fees for LOGCAP IV could total as
much as $1.5 billion.

Administrative Oversight of LOGCAP
ASC delegated administrative oversight of LOGCAP contracts to DCMA. ASC issued a
delegation memorandum appointing a DCMA ACO to execute certain responsibilities
identified in Federal Acquisition Regulation 42.302, “Contract Administration
Functions.” The LOGCAP PCO defined the specific responsibilities from Federal
Acquisition Regulation 42.302 in a matrix attached to the delegation memorandum.
According to the delegation matrix, the DCMA ACO was required to ensure that the
contractor complied with the requirements in the LOGCAP contract and the contract’s
statements of work. The delegation matrix also required the DCMA ACO to ensure that
the contractors complied with quality assurance requirements.

For the LOGCAP contracts, DCMA assigned one QAR to perform surveillance—that is,
independent examinations, or reviews, of the contractor’s services in Kuwait to determine
whether the contractor was performing in accordance with the terms of the LOGCAP
contract. DCMA developed a Quality Assurance Surveillance Plan8 (surveillance plan) to
provide oversight, guidance, and direction to the QAR when performing surveillance
efforts. The surveillance plan required that the LOGCAP QAR develop and maintain a
surveillance schedule and perform and document reviews of services and products
regularly.




8
 Although DCMA issued the Theater Quality Plan in December 2008 to replace the Quality Assurance
Surveillance Plan, the audit team followed the Quality Assurance Surveillance Plan, May 2008, when
evaluating QAR and COR duties because this was the document the QAR and CORs followed at the time
of our review.


                                                21
For LOGCAP surveillance, the military units provide the QAR with military personnel to
perform COR responsibilities to assist in the contract’s administration. DCMA considers
CORs subject matter experts on the contractor’s technical performance. The QAR is
responsible for ensuring that the CORs conduct quality reviews of the services that
contractors provide. The reviews should be based on the requirements identified in the
LOGCAP contracts and the contract’s statements of work.

Evaluations of LOGCAP Contractor Performance
The QAR and CORs did not evaluate LOGCAP contractors as required. Specifically, the
surveillance plan required that the QAR assign a risk level to each service that the
LOGCAP contractor provides. Considerations for the risk were assessments of the
importance of the service, the risk associated with its interruption, and the frequency of
the required surveillance. A high-risk service should be reviewed weekly, a medium-risk
service every other week, and a low-risk service monthly. The QAR and CORs document
the reviews on checklists.

Of the seven CORs who provided contractor evaluations to the Kuwait Performance
Evaluation Board, two did not conduct the surveillance reviews as frequently as the risk
level assigned to the service demanded. For example, during the period of evaluation
from November 1 through November 30, 2008, a COR reviewed a moderate-risk service
only once. Moreover, the CORs did not adequately document their reviews. We
interviewed four of the seven LOGCAP CORs. The four stated that they did not complete
more than one checklist a month for any given service. Three CORs stated that they
completed only a portion of a checklist during a site visit and that by the end of the month
they may have completed an entire checklist. All of the CORs stated that the checklists
were out-of-date and did not include a section for them to add details about their
inspections. Lastly, all of the CORs stated that completing the review checklists is not
their primary duty, and all but one of the CORs stated that they did not give the
completion of the checklists high priority.

The QAR and CORs did not evaluate contractor performance on a consistent and routine
basis; however, this is essential to verify that contractors are accurately rated on their
performance. According to DCMA officials, DCMA-Kuwait required that the QAR and
COR perform five joint monthly reviews, but DCMA did not document the requirement
in formal policy or procedures. The Kuwait QAR stated that a QAR is required to
conduct a minimum of 25 surveillance reviews each month, but that a QAR rarely
completes 20 a month. Further, the Kuwait QAR did not verify that the CORs reporting
to him completed their required number of reviews. Without conducting the required
number of reviews each month, the QAR and CORs are not in a position to accurately
assess contractors’ performance, and contractor ratings that the Performance Evaluation
Board uses are based on incomplete information from quality assurance officials and
have little value.

LOGCAP officials need to conduct consistent and routine reviews of contractor services
based on the risk level. The reviews are important for establishing how well the
contractor is performing. The Commander, DCMA International, along with the unit


                                            22
officials responsible for the CORs, must hold the QAR and CORs accountable for failing
to complete their quality assurance responsibilities for the LOGCAP contracts as required
by the delegation matrix and Federal Acquisition Regulation 42.302. The Commander,
DCMA International should require that the QAR develop a schedule for completing the
required number of reviews and validate that the reviews are conducted. Lastly, the
Commander, DCMA International and the unit officials who assign the CORs should
assess the workload of the CORs and verify that training for CORs is repeated each time
units rotate.

The QAR and CORs should complete their checklists. The QAR and the CORs use the
checklists to document contractor performance for the Performance Evaluation Board.
The QAR should also accompany the CORs on the required number of reviews.

LOGCAP Performance Evaluation Board
The DCMA Iraq/Afghanistan Memorandum, “DCMA Iraq/Afghanistan Performance
Evaluation Board/Award Fee Board Standard Operating Procedures,” June 28, 2008,
(standard operating procedures memorandum), states that the Performance Evaluation
Board is a tool to influence contractor performance. Further, the standard operating
procedures memorandum states that the Performance Evaluation Board is the center of
contract management, which culminates in the monthly review and documenting of a
contractor’s performance. The standard operating procedures memorandum also states
that the performance evaluation board is a way to provide the best possible service to the
troops, gage performance, and institute corrective action.

As part of the DCMA oversight responsibilities for the LOGCAP contract, the ACO was
required to conduct formal evaluations of the contractor’s performance. These formal
evaluations, Performance Evaluation Board meetings, are conducted monthly to
determine whether the LOGCAP contractor provided the best possible performance to the
Government, established efficiency while maximizing use of resources, and effectively
managed costs. We focused on the performance evaluation for one of the
three LOGCAP III task orders for Kuwait. After the transition, DCMA will hold a
Performance Evaluation Board meeting to assess how well the LOGCAP III contractor
performed when it transferred services to the LOGCAP IV contractors. DCMA will also
convene the Performance Evaluation Board to evaluate how well the LOGCAP IV
contractors performed during the transfer of LOGCAP services.

Contractor Ratings
We attended a Performance Evaluation Board meeting on December 12, 2008, at which
the CORs provided inaccurate or incomplete ratings to board members. The CORs
presented a contractor performance summary report, which included a rating based on the
information obtained from their monthly reviews.

At the December 12 meeting, 5 of 10 ratings the CORs provided to the board did not
match their written assessments. For example, one COR wrote that the contractor needed
improvement in facilities operations and maintenance but gave the contractor an
“excellent” rating. Two CORs stated that the contractor’s performance was “high quality”


                                            23
and “greatly exceeded average performance” but gave the contractor a “very good”
rating. Additionally, the written explanation of 9 of 10 ratings did not indicate the section
of the contract’s statement of work being assessed.

While the board members stated that they did not agree with the COR ratings, the
members did not require that the CORs reconcile the differences. Also, the Commander,
DCMA International, stated that the CORs should not be determining the overall rating of
a contractor. The board members used the ratings to determine the numeric score that
corresponded to the rating. The ratings are also provided to the Award Fee Evaluation
Board, which determines the amount by which contractors are rewarded for any
performance on the contract that exceeds the minimum standards. The LOGCAP III
contractor’s award has the potential to be in the millions of dollars. The LOGCAP IV
contractors could receive a profit of $1.5 billion in award fees.

The QAR should review the COR performance summary reports before they are
presented to the Performance Evaluation Board. The QAR should not allow CORs to
assess the overall ratings of the contractor’s performance as this is the responsibility of
the Performance Evaluation Board. Additionally, the Commander, DCMA International
should prohibit members of the Performance Evaluation Board from providing numerical
ratings to contractors when COR ratings do not match written assessments in
performance summary reports.

COR Training
The lack of administrative oversight happened because the QAR did not follow the
surveillance plan or the standard operating procedures memorandum established by the
Commander, DCMA Iraq/Afghanistan. Additionally, the QAR did not adequately train
the CORs on assessing contractor performance. During our interviews of the CORs, they
stated that their COR responsibilities are collateral duties. The four CORs interviewed
stated that the training they received was not beneficial because it did not focus on their
COR responsibilities. They also stated that more detailed training on how to assess
contractor performance would be extremely beneficial. Further, the CORs stated that they
did not understand the purpose of completing the checklists, especially because the
checklists were out of date.

DCMA officials should conduct more training for the QAR and CORs who support the
LOGCAP contracts. CORs rotate along with their military units every 6 to 12 months.
Therefore, DCMA officials should conduct the training whenever new CORs are
assigned to the LOGCAP contract. The training should focus on completing and
understanding the review checklists. The training should also include techniques for
assessing contractor performance. Additionally, the QAR should update review checklists
using current documents and the contract’s statements of work and adjust training when a
checklist is updated.

The Director, Defense Procurement and Acquisition Policy Memorandum, “Designation
of Contracting Officer’s Representatives on Contracts for Services in Support of
Department of Defense Requirements,” December 6, 2006, requires that properly trained


                                             24
CORs be identified on active service contracts. The Director’s memorandum also
requires that COR performance be addressed in their performance reviews. The Deputy
Secretary of Defense Memorandum, “Monitoring Contract Performance in Contracts for
Services,” August 22, 2008, states that trained and ready CORs are critical to ensuring
that contractors comply with contract requirements. The Deputy Secretary of Defense
memorandum also requires that COR activities be tailored to the dollar value and
complexity of the service contract. These memoranda when compared to the audit results
are further evidence that COR monitoring and administration of service contracts needs
to be addressed.

Conclusion
By not completing oversight reviews according to DCMA standards, DCMA may not be
able to identify trends in contractor performance. Further, because the program office did
not develop procedures for the oversight and reporting of the LOGCAP III contractor’s
performance, the oversight problems from LOGCAP III will likely carry over to
LOGCAP IV. Additionally, the inaccurate ratings the CORs provided to the Performance
Evaluation Board on the contractor’s performance could possibly cause contractors to
receive award fees that do not appropriately reflect performance.

Recommendations, Management Comments, and
Our Response
Revised Recommendation
Based on management comments, we revised Recommendation D.7.d to clarify the intent
of the recommendation. Specifically, we added the word “joint” to clarify the type of
contractor inspections on which the QAR should accompany contracting officer’s
representatives.

D. We recommend that the Commander, Defense Contracting Management Agency
International:

       1. Identify a process to hold the quality assurance representative and
contractor officer’s representatives accountable for not completing surveillance
requirements contained in the delegation matrix and Federal Acquisition
Regulation 42.302, “Contract Administration Functions.”

Management Comments
The Commander, DCMA International, disagreed. He stated that the DCMA office in
Kuwait established a process to hold a QAR and CORs accountable for not completing
surveillance requirements. The Commander stated that DCMA obtains monthly metrics
on the number of audits scheduled, then compares it with the number of audits
performed. He stated that the frequency of audits is based on a risk assessment of the
service provided. The Commander further stated that the Commander, DCMA-Kuwait,
has the authority to hold personnel accountable for not performing their surveillance
requirements.


                                            25
Our Response
Although the Commander, DCMA International, disagreed, his comments indicated that
there is a process in place to hold personnel accountable for not performing surveillance
requirements. In response to the final report, we request that the Commander provide the
document that outlines the process to hold quality assurance officials accountable for not
completing their surveillance duties and the consequences imposed on anyone not
complying. We also ask that he provide the actions taken against the QAR and CORs for
the last 2 years for the lapses identified in this report.

      2. Validate that the quality assurance representative develops a monthly
schedule of services planned for review and that reviews are completed as required.

Management Comments
The Commander, DCMA International, disagreed. He stated that DCMA-Kuwait already
validates that QARs develop a monthly schedule of reviews and ensures that the reviews
are completed. The Commander stated the completion of the reviews may be affected by
service changes or troop movement. The Commander stated, however, that he would
remind DCMA-Kuwait to ensure that QARs develop a monthly schedule and complete
the scheduled reviews.

Our Response
The Commander, DCMA International, comments indicate that DCMA-Kuwait already
validates that the QAR develops a monthly schedule of reviews and ensures that the
reviews are completed. In response to the final report, we request that the Commander
demonstrate that a monthly scheduled is developed and that required reviews are
documented when complete.

        3. Require the quality assurance representative to provide additional training
to the contracting officer’s representatives on their Logistic Civil Augmentation
Program responsibilities.

Management Comments
The Commander, DCMA International, disagreed. He stated that the Kuwait QAR
already provides additional training to all CORs assigned oversight responsibilities on
DCMA-delegated contracts. The Commander stated that he will task the Commander,
DCMA-Kuwait, to review the adequacy of the COR training and report on any areas that
need improvement.

Our Response
Although the Commander, DCMA International, disagreed, his planned action meets the
intent of the recommendation. However, we request that the Commander provide in
response to the final report a copy of the tasking requiring the Commander,
DCMA-Kuwait to review the COR training. We also request a copy of the results.




                                            26
       4. Assess the workload of the Logistic Civil Augmentation Program
contracting officer’s representatives and identify actions that can be taken to
balance workload demands.

Management Comments
The Commander, DCMA International, disagreed. He stated that DCMA International
and DCMA-Kuwait review the COR workload on a regular basis and adjust the workload
when needed. The Commander stated that the supported units also review COR workload
requirements and assign resources to ensure adequate COR coverage. The Commander
further stated that if additional resources are needed, the DCMA-Kuwait Commander will
request additional support through the chain of command or request additional COR
support through the unit commander.

Our Response
Pursuant to the Deputy Secretary of Defense memorandum, the Commander, DCMA
International, did not identify actions taken to balance workload demands. If COR
workloads were constantly reviewed, the CORs should have completed the required
number of audits each month. However, the four CORs we interviewed stated that their
COR responsibilities were collateral duties. The CORs also stated that they did not
complete more than one checklist a month for any given service, and three of the
four CORs stated that they did not give the completion of the checklists a high priority.
Therefore, we request that the Commander provide in response to the final report the
documented results of his workload assessments, when they were completed, and the
actions taken to balance COR workloads.

       5. Instruct members of the Logistics Civil Augmentation Program
Performance Evaluation Board to review, in advance, contracting officer’s
representatives’ performance summary reports and not to decide on the
contractor’s numerical ratings when performance summary reports are not
accurate.

Management Comments
The Commander, DCMA International, agreed. He stated that board members would be
reinstructed on the performance evaluation board process. The Commander stated that the
Rock Island Contracting Command is amending the award fee board process for the
LOGCAP IV contract. He stated that the changes would address the concerns of this
recommendation.

Our Response
The Commander, DCMA International comments indicate corrective actions were taken
and therefore, no further comments are required.

      6. Postpone any meeting of the Logistics Civil Augmentation Program
Performance Evaluation Board when information that the Defense Contracting




                                            27
Management Agency quality assurance representative and contractor officer’s
representatives have to present is not consistent or accurate.

Management Comments
The Commander, DCMA International, agreed. He stated that a commander has always
had the option to postpone a performance evaluation board when the information to be
presented to the board is not consistent or accurate. The Commander stated that he will
remind the DCMA Contingency Contract Management Office of the importance of
presenting factual data at the performance evaluation boards.

Our Response
The DCMA International Commander’s planned action meets the intent of the
recommendation, and no further comments are required.

       7. Direct the Logistic Civil Augmentation Program quality assurance
representative to:

               a. Update the review checklists to contain current information from
the Logistics Civil Augmentation Program statements of work and military units’
documents and to include a section for comments.

Management Comments
The Commander, DCMA International, agreed. He stated that the QAR developed a
checklist from the LOGCAP performance work statement for CORs to use. The
Commander stated that the updated checklist includes a section for comments.

Our Response
The comments of the Commander, DCMA International comments indicate corrective
actions were taken. However, we request that he provide in response to the final report a
copy of the updated checklist.

               b. Conduct and document the required number of reviews each
month.

Management Comments
The Commander, DCMA International, disagreed. He stated that DCMA already requires
the QAR to conduct and document the required number of reviews each month.

Our Response
The comments of the Commander, DCMA International, did not meet the intent of the
recommendation. By the QAR’s own admission, the QAR in Kuwait did not complete the
required number of audits each month. If DCMA already requires the QAR to conduct
and document the required number of reviews, we request that the Commander provide in
response to the final report a copy of the document stipulating the requirements. We also



                                            28
request that the Commander discuss whether actions were taken against the QAR for the
lapses identified in this report.

            c. Validate that contracting officer’s representatives complete the
required number of surveillance reviews each month.

Management Comments
The Commander, DCMA International, agreed. He stated that DCMA-Kuwait would
ensure that the QAR reviews COR surveillance audits and conducts regular desk audits of
the CORs.

Our Response
The Commander, DCMA International comments indicate corrective actions were taken
and therefore, no further comments are required.

             d. Accompany contracting officer’s representatives on the required
number of joint reviews to ensure consistent evaluations of contractor performance.

Management Comments
The Commander, DCMA International, disagreed. He stated that the CORs provide a
monthly evaluation to the QAR. The Commander stated that the QAR performs an
average of 25 audits per month, including 5 joint audits with their CORs. The
Commander stated that it is not practical for a QAR to accompany CORs on all of their
audits.

Our Response
In response to management comments, we revised the recommendation for clarity.
During the audit, the CORs interviewed stated that the QAR did not accompany them on
any reviews (audits). The joint reviews could be used as a means for added training and
consistency of evaluations of contractor’s performance. We request that the Commander
provide comments on the revised recommendation in response to the final report stating
how he will ensure that the required number of joint reviews is completed.

               e. Review contracting officer’s representatives’ performance
summary reports to ensure that the written assessments are accurate and indicate
the section of the contract’s statement of work being assessed.

Management Comments
The Commander, DCMA International, disagreed. He stated that DCMA-Kuwait already
collects COR data and summary reports and that the administrative contracting officer,
lead QAR, and the commander review them for accuracy. The Commander stated that
each input identifies the part of the statement of work being evaluated.




                                          29
Our Response
Although the Commander, DCMA International, disagreed, he stated that a process was
in place to review COR summary reports. If reviews were conducted, their quality must
significantly improve. The COR summary reports we reviewed were not consistent and
did not always indicate the part of the statement of work being evaluated. Therefore, we
request that the Commander provide comments in response to the final report stating how
he will ensure that quality reviews of COR summary reports are conducted.




                                          30
Appendix A. Scope and Methodology
We conducted this performance audit from September 2008 through June 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine whether the LOGCAP office planned for the transfer of services from the
LOGCAP III to the LOGCAP IV contract, we interviewed personnel involved in the
transition process, observed operations in Kuwait that ASC planned to transfer to the
LOGCAP IV contractors, and reviewed documents as described below. Specifically, we
visited the following locations.

      LOGCAP office and ASC headquarters, Rock Island, Illinois
      LOGCAP Operations Directorate, Ft. Belvoir, Virginia
      LOGCAP Management Office and DCMA, Camp Arifjan, Kuwait
      DCMA International, Alexandria, Virginia
      DCMA-Houston, Texas

We focused on four transition areas during our review of the ASC transition process: the
development of a comprehensive and country-specific transition plans, development of a
standard performance work statement, procedures for transferring LOGCAP property and
equipment, and the administrative oversight of the contracts.

Transition Planning
We reviewed documents obtained from the LOGCAP office, DCMA, and performance
contractors to determine whether the organizations involved in the transition process
developed procedures to transfer goods and services to new contractors. We reviewed the
LOGCAP III task orders, the LOGCAP IV contract and performance work statement, the
LOGCAP IV acquisition plan, rehearsal of concept drills, symposium minutes, LOGCAP
transition plans, and the DCMA transition management plans. We interviewed officials
from the LOGCAP office, DCMA, military units, and performance contractors involved
in the transition process. We compared the testimonial evidence obtained from those
officials with the documents we reviewed because DOD did not issue any policy or
procedures for transferring services from one contract to another.

Implementation of Cost Controls in the Acquisition Plan
We reviewed documents obtained from the LOGCAP office to determine whether
LOGCAP officials created standardized performance work statements, the pricing
models, or identified goods and services that could be acquired using a firm-fixed-price
contract. Specifically, we reviewed the three Kuwait performance work statements and
the LOGCAP IV acquisition plan. We also interviewed the LOGCAP IV PCO to
determine any future plans for the use of a standard performance work statement.


                                           31
Oversight of Property
We reviewed documents obtained from the LOGCAP office, DCMA, and performance
contractors to determine whether DCMA had developed procedures to transfer LOGCAP
property from the LOGCAP III to the LOGCAP IV contract. We reviewed the DCMA
Transition Management Plan, DCMA briefing slides, the LOGCAP III and IV contracts,
symposium minutes, and timelines for the transfer of property. We compared the
documents to procedures identified in the DCMA-Kuwait transition management plan,
Federal Acquisition Regulation Part 45 and clause 52.245-1. We interviewed officials
from the LOGCAP office, DCMA, military units, and performance contractors involved
in the transition process to determine their understanding of the procedures for
transferring LOGCAP property and equipment from the LOGCAP III to the LOGCAP IV
contractors.

Oversight of Contractors
We reviewed documents obtained from the LOGCAP office and DCMA to determine the
process for evaluating contractor performance on the LOGCAP contracts. We reviewed
the delegation memorandum, surveillance plans, checklists, and performance summary
reports. We compared the documents with the standard operating procedures
memorandum and Federal Acquisition Regulation 42.302 to determine whether DCMA
officials provided adequate administrative oversight of the LOGCAP contracts. We also
interviewed DCMA officials, the QAR, and CORs and compared their statements with
the documents and policy reviewed. Lastly, we attended a Performance Evaluation Board
meeting in Kuwait on December 12, 2008, to understand the process for rating
contractors’ performance on the LOGCAP contracts.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued one report,
the Army Audit Agency issued three reports, and the Commission on Wartime
Contracting held two hearings discussing transition planning for the LOGCAP contract.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted Army reports can be accessed at https://aaa.army.mil/ from .mil and gao.gov
domains. The Commission on Wartime Contracting hearings can be accessed at
http://www.wartimecontracting.gov.

GAO
GAO Report No. GAO-08-759, “Telecommunications: Agencies Are Generally
Following Sound Transition Planning Practices, and GSA Is Taking Action to Resolve
Challenges,” June 2008




                                           32
Army
Army Audit Report No. A-2007-0104-ALL, “Summary Audit Report on the Cost-
Effectiveness of Transitioning Work Under the Logistics Civil Augmentation Program
Contingency Contract to Sustainment Contracting, Audit of Logistics Civil Augmentation
Program Operations in Support of Operation Iraqi Freedom,” March 23, 2007

Army Audit Report No. A-2007-0093-ALL, “Audit of the Cost-Effectiveness of
Transitioning Selected Functions Performed at the Theater Distribution Center (Task
Order 87) From Contingency to Sustainment Contracting, Audit of Logistics Civil
Augmentation Program Operations in Support of Operation Iraqi Freedom,”
March 9, 2007

Army Audit Report No. A-2006-0253-ALL, “Audit of the Cost Effectiveness of
Transitioning the General Support Supply Support Activity (Task Order 87) From
Contingency to Sustainment Contracting, Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” September 28, 2006
(This report is restricted and cannot be accessed over the Internet.)

Commission on Wartime Contracting
Hearing on, “Contractor Business Systems,” August 11, 2009

Hearing on, “LOGCAP: Support-Contracting Challenges in Iraq and Afghanistan,”
May 4, 2009




                                          33
Appendix B. Kuwait Task Orders
The Executive Director plans to transfer Kuwait task orders 147, 157, and 161 from the
LOGCAP III to the LOGCAP IV contracts. As of May 2009, the Army had paid almost
$347 million to the LOGCAP III contractor for services rendered in Kuwait.

Task Order 147: Kuwait Area of Responsibility
For task order 147, the contractor provides basic camp services, life support services, and
select combat support to U.S. military forces in the Kuwait area of operations. Services
include:

      facilities and operations maintenance,
      electrical inspection, maintenance, and repair services,
      heating ventilation and air conditioning,
      power and light generator installation and maintenance,
      water supply,
      dumpster and waste removal services,
      environmental and health surveillance,
      fire-fighting services, and
      transportation mission support.

Task Order 157: Udairi Airfield
For task order 157 the contractor must provide base life support services including:

      fire-fighting and fire protection support services,
      equipment and vehicle maintenance,
      fire prevention and education, and
      fire and airfield maintenance and repair.

The contractor must also provide theater transportation mission support including:

      airfield operations and management services,
      flight dispatch and advisory services,
      area of responsibility map maintenance,
      forward refuel point service,
      air traffic control tower and facilities services, and
      weather observation and forecasting services.

Task Order 161: Test, Measurement, and Diagnostic
Equipment
For task order 161 the contractor must provide all services, resources, and management
necessary to provide calibration and repair services for the Southwest Asia test,
measurement, and diagnostic equipment inventory.


                                             34
Appendix C. Management Comments on
Finding B and Our Response
Management Comments
The Executive Director, LOGCAP, provided the following comments on Finding B of the
draft report.

Standard LOGCAP Performance Work Statement
The Executive Director, LOGCAP stated that the program office began developing the
standard performance work statement for LOGCAP IV early in 2008. The Executive
Director stated that the LOGCAP office in Kuwait established a team to develop a
standard performance work statement for Kuwait, Iraq, and Afghanistan to ensure
standardization across the theater.

Performance Work Statement for Kuwait
The Executive Director stated that LOGCAP-Kuwait began compiling input for the
LOGCAP IV performance work statement on May 20, 2008. He stated that the
DPD-Kuwait held regular meetings with leadership and unit CORs and officials to ensure
that the updated document contained current operational information. The Executive
Director stated that a team was formed to develop detailed performance work statements
for the Kuwait task orders. The Executive Director also stated that LOGCAP-Kuwait
hosted site visits, conducted briefs, and entertained vendor questions to provide each
contractor the opportunity to conduct due diligence. The Executive Director stated that in
July 2008, LOGCAP-Kuwait completed the performance work statements for Kuwait,
which formed the basis of the LOGCAP IV performance work statement. He stated that
LOGCAP-Kuwait successfully transferred the Kuwait task orders to the LOGCAP IV
contract, demonstrating the thoroughness of the performance work statements issued and
the contractors’ understanding of the requirements. The Executive Director added that the
basis for the Kuwait performance work statements was neither the tactics, techniques, and
procedures document nor the LOGCAP III statement of work. He stated that, although
the DPD-Kuwait provided an updated LOGCAP III statement of work to the military
units, the units focused on developing the LOGCAP IV performance work statement
instead.

Also, the Executive Director stated that the DCMA ACO participated for a time in the
development of the LOGCAP IV performance work statement, but eventually stopped.
He stated, however, that the ACO received updates regarding the progress made and
issues identified.

Our Response
On September 23, 2008, the LOGCAP IV PCO stated that she was developing a standard
performance work statement. We made repeated requests for a copy. It was not until after
our exit conference with LOGCAP and DCMA officials in May 2009 that a copy was


                                           35
provided, 7 months after our initial request. Moreover, it applied only to Afghanistan.
The LOGCAP IV PCO stated that she was in the process of developing one for Iraq.

Unit officials, the DCMA ACO, and the LOGCAP III contractor told the auditors that the
LOGCAP IV performance work statement was out-of-date and did not reflect current
operations. We relied on statements by the DPD-Kuwait that he used the tactics,
techniques, and procedures and the LOGCAP III statement of work to develop the
performance work statement for the LOGCAP IV task orders. Therefore, there seems to
be a disconnect between the DPD-Kuwait and the Executive Director.




                                            36
Logistics Civil Augmentation Program Office Comments




                  Click to add JPEG file




                                 37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
Click to add JPEG file




               41
Click to add JPEG file




               42
Click to add JPEG file




               43
Click to add JPEG file




               44
Click to add JPEG file




               45
Click to add JPEG file




               46
                           Final Report
                            Reference




                         Revised




                         page 14




                         page 14

Click to add JPEG file




               47
                           Final Report
                            Reference




                         page 15




Click to add JPEG file




               48
Click to add JPEG file




               49
Click to add JPEG file




               50
Click to add JPEG file




               51
Defense Contract Management Agency International
Comments




                  Click to add JPEG file




                                 52
Click to add JPEG file




               53
Click to add JPEG file




               54
                           Final Report
                            Reference




                         Revised


Click to add JPEG file




               55
Click to add JPEG file




               56
